                                                                                       NATIONAL SCIENCE FOUNDATION
                                                                                        OFFICE OF INSPECTOR GENERAL
                                                                                          OFFICE OF INVESTIGATIONS

                                                                                 CLOSEOUT MEMORANDUM

                            Case Number:A05040019                                                                                                      Page 1 of 1



                                  On 19 April 2005, we ieceived an allegation of intellectual theft.! It was alleged that the        . 5'                                                 8>   G




                       , -        subjects' NSF proposal. (subjects .1,2,3,4, and 512contained the same idea presented in an p1 ; - :!
                         id earlier declined NSB proposal (source d ~ c u m e n t ) .In
                                       '.                                                ~ addition,'it.was alleged that subject .P,the .I..:+ .
                       254. .I:; PI on the NSF proposa1;:acted as an ad$hoc reviewer for the s o d e document, from which*he. . , t . -.' .. -
                       :-:b~ui:-mighthave taken the idea.. Finally, concern was expresskd>that.the~s~         proposal included the 4'1..
                        2 , 2 . ..same participant, a foreign scientist, as was listed$in-thesourceddcument!:                      --
                                                                                                                   .:'. - .- .:-., - ,-         %,..             "       *   I        )
                                                                                                                                                                                      .


                                                                                                        I'
                                                                                                                      ,
             ahi:      LA,k           -"    Our review andicomparison of the idea in*the,source-dochentaid in:the!NSE;pi-oposal:
                                            o n


        ., ,                      I .,,, .,submitted by the,subjects showed that the,idea was partly-unique,to ,the PI of-the,source ,         -                                                   .
                           -::Js::.:ridociunent. However, we also noted that the s u b j e c t s ? ~propd'salclearl$~and:adeqlately
                                                                                                          S~                             cited
             1
             :          :iz: ::,A 3 the appropriate articles and abstracts that ldiscuss'ed4the"idea:.o n e o f the'citations in the subjects'
                                       -
y$:Lhi                 t , a : r b 7.>.L..,$JSF
                                      +m,a-      Ijroposal included an article publish~&after~the'sou:ce docdkent ?as iubinitted- This later                                         ,L


:                      s.12..*r .pbblication clearly was a continuation.of the idea presented .in thelsoiiirce
                                                                                                             :,,         .document. Therefore,
    -        ,              +: . .there was not intellectual theft of the idea.::              . -,        : ,:, -..- ..  t     .
                                                                                                                              *+,,
                                                                                                                                > , .* -< % ,                %       .
                                                                                                                                                                                 *        3


                                                                                                      ,?!      ii
                                                                                                I               1;)
<       *.     .,.,    t.9; r i i
                              o ~ also
                                                                                        It*

                                   e determined that there was noviolation d~the,coAfidentiiilit~    of pe&:review. We noted
- . .                   :: :
                       -*    that
                               i. the foreign scientist listed as a particikant on the source.doc$nentsand the subjects7NSF
                         :,..pioposal was one of the few experts in th$t kountry in thk're1ated'~~ecialized
                           A,:.                                                                              area of study. The
                                             selection of this scientist was a logical choice for a participant for both proposals.

                                            This case is closed and no further action will be taken.




                      I'
                       NSF OIG Form 2 (1 1/02)
                                                                                                                                                                                                       '11
